Office of the Inspector General
Skip to content
Social Security Online
Office of the Inspector General
www.socialsecurity.gov
Home  |  Questions?  |  Contact
Us
Search
About
Hotline
Offices
Resources
Español
OIG Home
Audit
Report - A-07-95-00833
Office of Audit
The Social Security Administrations
Payment for Medical Evidence of Record Obtained by State Disability
Determination Services - A-07-95-00833 - 3/26/97
This report provides you with the results of our review
of the Social Security Administrations (SSA) payment for medical
evidence of record (MER) obtained by State Disability Determination
Services (DDS) in making disability determinations. The objective
of our audit was to assess SSAs policy of reimbursing medical
providers for the cost of providing MER.
In allowing payment for MER under the Disability Insurance
Program in 1980, Congress intended that MER would be received more
timely, thereby reducing the need to purchase consultative examinations
(CE) and the time to process disability claims. We reviewed the processing
times for title II Disability Insurance (DI) and title XVI
Supplemental Security Income (SSI) disability claims from Fiscal
Years (FY) 1985 to 1994. We found that claims processing times
increased for DI and SSI by 42 percent and 39 percent,
respectively. We also reviewed the trend in DDS purchases of CEs
during the same time period. CEs are ordered when a DDS has insufficient
medical evidence to reach a disability decision. CE purchase rates
remained relatively constant, with only a 3.7 percent decrease
from FYs 1985 to 1994. Given the substantial increase in claims
processing times and the relatively constant CE rates, we have concluded
that payment for MER has had no apparent impact on improving the
timeliness of MER or reducing the purchases of CEs.
This conclusion reaffirms a Department of Health and
Human Services, Office of Inspector General (HHS/OIG) report,
issued in February 1994, and an SSA Disability Process Redesign
Report, issued in March 1994. The OIG and SSA Redesign Team
reported that delays in MER collection resulted in increased claims
processing times. Further evidence came from the State of Connecticut
where a State law ending MER reimbursement has had no adverse impact
on claims processing timeliness or the purchases of CEs.
We believe that our audit results raise concern regarding
SSAs policy of reimbursing medical providers for the cost of
providing MER. The policy allows medical sources to be paid for MER
even when medical sources fail to submit MER within a reasonable
time period. The medical sources failure to submit MER timely results
in DDSs expending limited staff resources to make follow-up requests
for MER, as well as unnecessary CE purchases and increased claims
processing times.
Congress authorized payment for MER under the DI program
as an incentive for medical sources to submit MER timely. However,
our audit results indicate that medical sources are not always submitting
MER within a reasonable time period. We do not believe that it was
Congress intent to reimburse medical sources when the sources
failure to provide timely MER negatively impacts the disability programs.
We are recommending that SSA re-evaluate its policy
for paying for MER. As part of this re-evaluation, we suggest that
SSA capture data on MER processing times to determine the extent
to which MER is not being submitted timely. We are also recommending,
assuming the re-evaluation discloses significant delays in receiving
MER, that SSA initiate a legislative proposal precluding payment
to medical sources for medical records which were not received within
30 days from the date of the request. We believe that 30 days
is a reasonable time period for medical sources to respond to DDS
requests for MER. The 30-day time period seems reasonable based on
SSA`s policy which directs DDSs to follow up within 20 days after
the request and allow at least 10 days for the provider to respond.
SSA agreed that payment for MER should be used as an
incentive for timely and responsive submission of medical evidence.
The Agency deferred commenting on our specific recommendations pending
the results of a planned re-evaluation of policies and procedures
related to the collection of medical evidence.
Back to top
INTRODUCTION
Background
Each year, more than 2 million people apply for
DI and/or SSI disability benefits. Determinations of disability under
DI and SSI programs are made by State DDSs in accordance with Federal
regulations. The disability process begins when a claimant completes
an application for DI or SSI benefits. The application, or claim,
includes information that relates to the claimants alleged
disability. The SSA field office verifies the claimants nonmedical
eligibility requirements. When the nonmedical eligibility requirements
are met, the disability claim is forwarded to the State DDS for a
medical determination of disability.
The State DDS is responsible for obtaining and reviewing
MER from a claimant`s medical sources to determine if the claimant
is disabled. MER includes, but is not limited to, copies of laboratory
reports, prescriptions, x rays, ancillary tests, operative and pathology
reports, consultative reports, and other technical information used
in assessing the patients health condition.
According to SSA Program Operations Manual System (POMS)
DI 22505.001B.5, DDSs should make every reasonable effort to obtain
MER from claimants treating sources. This POMS reference defines
every reasonable effort as: (i) making an initial request for
MER from the treating source; (ii) making a follow-up request
any time between 10 and 20 calendar days after the
initial request if the MER has not been received; and (iii) allowing
a minimum of 10 calendar days from the follow-up request for
the treating source to respond.
Congress authorized SSA to pay for MER under the SSI
program since its inception in 1974 because, under a needs program,
it was considered unreasonable to expect a claimant to pay for the
medical evidence. In 1980, Congress amended The Social Security
Act (the Act) to allow payment for MER under the DI program.
In amending the Act, Congress believed that reimbursing providers
for MER would result in obtaining medical records timely, thereby
reducing the need to order additional CEs, an expensive and time-consuming
process.
Each State is responsible for determining the rate
of payment to be used by its DDS to purchase MER. SSA reimburses
DDSs for 100 percent of MER costs. The following table shows
the amounts expended to purchase MER and the number of claims cleared
nationwide by SSA during FYs 1992 through 1995.
FISCAL YEAR
MER EXPENDITURES
CLAIMS CLEARANCES
1992
$70.7 Million
3,118,570
1993
73.4 Million
3,476,665
1994
79.6 Million
3,672,967
1995
81.3 Million
3,786,535
Scope
Our audit was conducted in accordance with generally
accepted government auditing standards. The objective was to assess
SSAs policy for reimbursing medical sources for the cost of
providing MER. Audit field work was performed from April 1995
to June 1996 and included:
reviewing legislation governing SSAs
medical records collection process;
interviewing SSA officials regarding SSAs
medical records collection process;
reviewing DDS claims processing statistics
from SSAs Disability Programs Branch;
interviewing Connecticut DDS officials and
reviewing Connecticut legislation which precludes reimbursement
for the purchase of medical records under any provision of the
Act, and reviewing documentation regarding the Connecticut
DDS claims processing; and
reviewing published reports related to SSAs
medical records collection process.
Back to top
RESULTS OF REVIEW
Reimbursement Has Not Improved the Timeliness of
MER Collection
In authorizing payment for MER under the DI program,
Congress intended that the records would be received more timely
and, as a result, claims processing time reduced. Since statistics
on MER collection times were not maintained, we were unable to determine
the portion of claims processing times related to MER collection.
Nonetheless, the following evidence shows that the time required
to obtain MER accounts for a considerable portion of claims processing
times and contributes to delays in the disability determination process.
Based on this evidence, we concluded that reimbursing medical sources
for MER has had no apparent impact on improving the timeliness of
MER collection.
We reviewed the processing times for DI and SSI claims
from FYs 1985 to 1994. As shown in Appendix A, claims processing
times for DI and SSI increased by 42 percent and 39 percent,
respectively. We also reviewed the trend in DDS purchases of CEs
during the same time period. CE purchase rates remained relatively
constant, with only a 3.7 percent decrease from FYs 1985
to 1994. These statistics indicate that reimbursing medical sources
has had no apparent impact on improving the timeliness of the disability
determination process or reducing the purchases of CEs.
HHS/OIG reported that delays in MER collection resulted
in an increase in claims processing times. HHS/OIG reviewed a sample
of 398 pending disability claims from 5 DDSs and found
that: (i) 153 claims, or 38 percent, were awaiting
receipt of medical records an average of 77 days after DDS received
the disability claims; and (ii) follow-up requests had to be
made for 222, or 56 percent, of the 398 claims.
SSA formed a Disability Redesign team to study and
develop recommendations to improve the disability process. The team
reported that "SSAs ability to provide timely and accurate
disability decisions depends to a significant degree on the quality
of medical evidence it can obtain and speed with which it can obtain
it." The team added that "the medical evidence collection
process accounts for a considerable portion of the total time involved
in processing disability claims."
The Connecticut MER Collection Process
Connecticut General Statutes created by Connecticut
Public Act No. 91-137 and Connecticut Public Act No. 92-78 precluded
the charging of fees for MER obtained in support of a claim or appeal
under the Act. The Connecticut General Statutes require all
medical providers to furnish the claimant (or appointed representative)
a complete copy of a claimant`s MER within 30 days.
The Connecticut legislation was sought by the Connecticut
legal services organization, Legal Assistance to Medicare Patients
(LAMP). LAMP believed that medical providers were imposing prohibitive
charges for medical records which, in some cases, could cause claimants
to be denied benefits because they could not afford to purchase medical
records. LAMP also believed that facilitating claimant access to
free medical records would make benefits more accessible and decrease
State expenditures under a variety of State-funded programs.
The Connecticut DDS MER costs were almost eliminated
in FY 1994 (see following table), the first full fiscal year after
the legislation was enacted by DDS, effective July 2, 1993.
DDS still incurs a minimal MER cost from out-of-State providers who
were not included under the provisions of the Connecticut legislation.
Also, DDS was able to reassign four full-time clerical staff who
had been responsible for processing MER billings prior to enactment
of the legislation to other duties.
CONNECTICUT DDS
Fiscal Year
MER Costs
DI Processing Times (Days)
SSI Processing Time (Days)
CE Purchase Rate
1992
$783,262
71.4
82.2
38 Percent
1993
448,071
65.9
73.4
45 Percent
1994
310
72.0
80.0
41 Percent
1995
1,432
62.9
69.3
38 Percent
As shown in the above table, the legislation has not
had a negative effect on either claims processing times or CE purchases.
In fact, DI and SSI processing times from FYs 1992 to 1995 improved
by 8.5 days and 12.9 days, respectively. In addition, CE
purchase rates have remained relatively constant, with the FY 1992
rate the same as the FY 1995 rate.
The legislation requires that medical sources provide
MER to DDS within 30 days of the request. Although the legislation
does not provide any penalty, DDS officials stated that most providers
respond within 30 days. The officials further stated that the
providers exceeding the 30-day limit were the same providers who
historically have been slow in processing MER requests.
We selected for review a judgmental sample of 200 MER
requests where the Connecticut DDS issued disability decisions between
the period April 9 through April 22, 1996. We found
that MER was received within 30 days or less for 138, or 69 percent,
of the 200 requests. For the remaining 62 requests, MER
was not received at all for 43 requests and received after 30 days
for 19 requests. In discussing these results with DDS officials,
the DDS officials stated that these results were representative and
believed that receiving 69 percent of DDS MER within 30 days
was a reasonable estimate.
We interviewed 11 Connecticut DDS officials, including
the Director, the Medical Relations Officer, a Disability Unit Supervisor,
and 8 disability examiners. The common response from these officials
was that the legislation had no adverse effect on the disability
determination process.
Back to top
CONCLUSION
AND RECOMMENDATIONS
Claims processing times during the period from FYs 1985
to 1994 substantially increased while CE purchase rates remained
relatively constant. In addition, the time required to obtain MER
accounts for a considerable portion of claims processing times and
contributes to delays in the disability determination process. Furthermore,
the State of Connecticut law precluding reimbursement to medical
providers for MER has had no negative impact on either claims processing
timeliness or the purchase of CEs. Accordingly, we have concluded
that reimbursing medical sources has had no apparent impact on improving
the timeliness of MER receipt or reducing CE purchases.
Recommendations
We are recommending that SSA:
1. Re-evaluate its policy for paying for MER. As
part of this re-evaluation, we suggest that SSA, for a specified
time period, have selected DDSs capture the time between the initial
MER request and the receipt of MER. This information will provide
SSA with the data necessary to determine the extent to which MER
is not being submitted timely.
2. Assuming the re-evaluation discloses significant
delays in receiving MER, initiate a legislative proposal precluding
payment to medical sources for medical records not received within
30 days from the date of the request.
Agency Comments
SSA deferred commenting on our specific recommendations,
but agreed that payment for MER should provide an incentive for timely
and responsive submissions of medical evidence. As part of the Agency`s
ongoing disability redesign process, it plans to complete a re-evaluation
of the medical evidence collection process within 9 months. If the
evaluation results support our position, SSA agreed to propose the
necessary legislation.
David C. Williams
Back to top
APPENDICES
APPENDIX A
CLAIMS PROCESSING TIME AND
CONSULTATIVE EXAMINATIONS PURCHASE RATES
DISABILITY DETERMINATION SERVICES NATIONWIDE
FISCAL YEARS 1985 THROUGH 1994
FISCAL YEAR
PROCESSING
TIMES (DI) (DAYS)
PROCESSING
TIMES (SSI) (DAYS)
CE PURCHASE
RATE (DI)
CE
PURCHASE
RATE (DI/SSI)
1985
53.0
58.2
33.4%
42.2%
1986
69.1
73.6
32.3%
41.6%
1987
62.7
66.6
26.9%
34.2%
1988
59.7
62.2
30.0%
34.8%
1989
62.3
64.6
29.7%
34.5%
1990
66.6
69.4
27.6%
33.3%
1991
75.5
80.4
27.4%
33.9%
1992
85.7
91.6
27.7%
36.8%
1993
76.5
81.4
27.5%
36.8%
1994
75.5
80.8
29.7%
37.7%
Privacy Policy | Website
Policies & Other Important Information | Site
Map
Need Larger Text?
Last reviewed or modified